Audit Report




OIG-11-099
SAFETY AND SOUNDNESS: Failed Bank Review of Western
Springs National Bank and Trust, Western Springs, Illinois
September 14, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                           September 14, 2011


            OIG-11-099

            MEMORANDUM FOR JOHN G. WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                 Jeffrey Dye /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of Western Springs National Bank and
                                  Trust


            This memorandum presents the results of our review of the failure of Western
            Springs National Bank and Trust (Western Springs). Western Springs opened in
            January 1916. It had one office in Western Springs, Illinois, and another in
            Countryside, Illinois. The bank was a subsidiary of Western Springs Bancorp, Inc, a
            one-bank holding company, located in Hoffman Estates, Illinois. The Office of the
            Comptroller of the Currency (OCC) closed Western Springs and appointed the
            Federal Deposit Insurance Corporation (FDIC) as receiver on April 8, 2011. As of
            December 31, 2010, the bank had $186.8 million in total assets. As of June 30,
            2011, FDIC estimated that the loss to the Deposit Insurance Fund to be $34
            million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of Western Springs that was limited to (1) ascertaining the
            grounds identified by OCC for appointing the FDIC as receiver and (2) determining
            whether any unusual circumstances exist that might warrant a more in-depth
            review of the loss. In performing our review we (1) examined documentation
            related to the appointment of FDIC as receiver and (2) interviewed OCC
            examination personnel.

            We conducted this performance audit during April and May 2011 in accordance
            with generally accepted government auditing standards. Those standards require
            that we plan and perform the audit to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our audit
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our audit objectives.
OIG-11-099
Page 2

Cause of Western Springs National Bank and Trust’s Failure
OCC appointed FDIC receiver based on the following grounds: (1) Western Springs
was in an unsafe or unsound condition to transact business, (2) the bank experienced
substantial dissipation of assets or earning due to unsafe or unsound practice, (3) the
bank incurred or was likely to incur losses that would deplete all or substantially all of
its capital and there was no reasonable prospect for it to become adequately
capitalized without federal assistance, (4) the bank’s unsafe or unsound practices or
condition were likely to seriously prejudice the interests of the Deposit Insurance Fund,
and (5) the bank was critically undercapitalized.

The primary cause of Western Spring’s failure was its pursuit of a growth strategy
which resulted in significant commercial real estate concentrations, combined with
poor credit administration and risk management practices. Deficiencies included overly
liberal underwriting practices, ineffective problem loan identification and loan review
processes, and weaknesses in the collateral valuation process. The poor performance
of loan participations purchased from Mutual Bank, Harvey, Illinois, a failed institution
where Western Spring’s Chairman of the Board served as Vice Chairman, was also a
factor in the bank’s failure.

During our review, we were informed of ongoing reviews by OCC and other agencies
into the bank’s activities and we provided further details to the Treasury Inspector
General’s Office of Investigations.


Conclusion
Based on our review of the causes of Western Spring’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no circumstances surrounding the bank’s failure that would necessitate an in-depth
review. We provided a draft of this memorandum to OCC management for
comment. In its response, OCC stated that it agreed with our conclusion as to the
causes of Western Spring’s failure and that it had no concerns with our
determination that an in-depth review of the bank’s failure was not warranted. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or James
Lisle, Audit Manager, at (202) 927-6345.

Attachments
         OIG-11-099

       Attachment 1
Management Response
                                                   OIG-11-099

                                                 Attachment 2
                                                   Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
